UN ITED STATES OF AM ERICA

FEDERAL TRADE COMMISSION
W ASH IN GTO N , D .C. 20580

Division of Marketing Practices

February 17, 2009
Thomas M. Hughes
Hunton & Williams LLP
1900 K Street NW
Washington, DC 20006
Dear Mr. Hughes:
This letter responds to your request for a staff advisory opinion regarding compliance
with the Magnuson-Moss Warranty Act (“Act”), 15 U.S.C. §§ 2301-2312, and the Commission’s
Rules promulgated under that Act. You seek guidance on whether providing consumer product
warranties via electronic media, rather than in paper form, would comply with the Act and the
Disclosure Rule. Based on the information you provide in your letter, and after considering the
purposes of the Act, it is the staff’s opinion that warranties provided in electronic formats could
comply with the Act and the Disclosure Rule.
In your letter you indicate that your client manufactures a variety of consumer
electronics, such as desktop, notebook, and handheld computers, printers, televisions, and digital
cameras, and provides written warranties on those products. Your client’s past practice has been
to include the product’s warranty in paper form within the product’s package (“in-package”
warranty).1 You indicate that these in-package warranties can range in size from three to
eighteen pages, which requires printing millions of copies of warranties each year on tons of
paper.
Your Client’s Proposal
Your client proposes to “replace ‘in-package’ paper warranties with electronic written
warranties. Depending upon the product, the electronic warranty would be preloaded on an
internal fixed drive, or portable media such as a CD or DVD. The product ‘set-up guide’ will
inform consumers that the warranty terms are provided electronically.”2
Your client would continue to provide its warranties to retailers so that retailers can make
them available to consumers pre-sale. In addition, your client “will continue to make warranties

1

Your letter also states that your client provides copies of its written warranties in paper
form to retailers, in compliance with the Pre-Sale Availability Rule, 16 C.F.R. § 702.3(b)(1)(i).
2

FTC staff agrees with the assertion in your letter that such an advisory would not be
considered part of the written consumer product warranty, and therefore, would not implicate the
single document requirement of the Warranty Disclosure Rule.

Mr. Thomas M. Hughes
February 17, 2009
Page 2
available at its web site.” Thus, under your client’s proposed course of action, consumers would
“be able to compare warranties presale and have post-sale access to their warranty terms and
conditions so that they can obtain support as needed.” Your client estimates that “replacing
millions of paper in-package warranties with electronic versions would result in significant
benefits related to reduced paper, printing, transportation, and storage.”
The Warranty Act and Rules
As acknowledged in your letter, your client’s proposed course of action implicates
several provisions of the Act or the Commission’s Rules under the Act. Specifically, the Act
requires that “any warrantor warranting a consumer product to a consumer by means of a written
warranty shall, to the extent required by rules of the Commission, fully and conspicuously
disclose in simple and readily understood language the terms and conditions of such warranty.”
15 U.S.C. § 2302(a). Following the mandate of the Act, the Commission’s Rule on Disclosure
of Written Consumer Product Warranty Terms and Conditions (the “Warranty Disclosure
Rule”), further specifies that “any warrantor warranting to a consumer by means of a written
warranty a consumer product actually costing the consumer more than $15.00 shall clearly and
conspicuously disclose in a single document in simple and readily understood language” certain
specified items of information regarding the warranty terms and conditions. Moreover, the
Commission’s Rule on Pre-Sale Availability of Written Warranty Terms (the “Pre-Sale
Availability Rule”) requires a “warrantor who gives a written warranty warranting to a consumer
a consumer product actually costing the consumer more than $15.00” to “provide sellers with
warranty materials necessary for such sellers to comply with the requirements” of the Rule so
that consumers can read a covered consumer product’s warranty before buying it. 16 C.F.R.
§ 702.3(b). The Pre-Sale Availability Rule also requires that warrantors provide “a copy of the
written warranty with every warranted consumer product.”3
Discussion
The language of the Act, quoted above, does not specify the medium, form, or format by
which disclosure of the terms and conditions of a written consumer product warranty must be
made, as long as the disclosure is made “fully and conspicuously . . . [and] in simple and readily
understood language.” The Act, however, authorizes the Commission by Rule to make the
disclosure requirement more specific, and the Commission, in the Warranty Disclosure Rule,

3

The Pre-Sale Availability Rule allows four methods for warrantors to provide sellers
with warranty materials necessary to make warranties available to consumers at point of sale.
Three of these methods entail providing “a copy of the written warranty” with every covered
consumer product warranted, in addition to other action. The fourth method consists of
providing “a tag, sign, sticker, label, decal or other attachment to the product, which contains the
full text of the written warranty.” Thus, regardless of the method chosen, the text of the
warranty must accompany the warranted product. 16 C.F.R. § 702.3(b)(1)(i)(A)-(D).

Mr. Thomas M. Hughes
February 17, 2009
Page 3
added to the Act’s requirements the specification that the disclosure be made “in a single
document,” while reiterating the Act’s requirement for “simple and readily understood
language.” Like the Act, the Warranty Disclosure Rule does not specify permissible media,
forms, or formats. Similarly, the Pre-Sale Availability Rule specifies that “a copy of the written
warranty” be provided, but also does not specify permissible media, forms, or formats.
As your letter notes, in the context of warranties provided pursuant to online transactions,
the FTC staff has stated that “[w]arranties communicated through visual text on Web sites are no
different than paper versions and the same rules apply.”4 In addition, advisory opinions have
been issued stating that a retailer may make a warranty available to consumers using certain nonpaper formats – such as on microfiche and ultrafiche readers – as a means of complying with the
Pre-Sale Availability Rule.5
Conclusion
Based on the broad language used in the Pre-Sale Availability Rule, FTC staff’s opinion is
that an electronic version of a consumer product warranty would constitute a “copy” of the
written warranty for purposes of compliance with the Warranty Act and Rules. Moreover, it is
staff’s opinion that a written consumer product warranty that is included on a CD, DVD, or on the
internal drive of the warranted product would qualify as being “provided with” or as
“accompanying” the product.
In passing the Act, Congress’s intent was to ensure that consumers receive clear and
complete information about warranty coverage pre-sale, and that consumers be able to retain a
copy of the warranty post-sale for reference in case of product failure. In the opinion of FTC
staff, those purposes are sufficiently accomplished by providing, in electronic form, a copy of a

4

Dot Com Disclosures: Information About Online Advertising, available at
http://www.ftc.gov/bcp/edu/pubs/business/ecommerce/bus41.pdf.
5

See 42 Fed. Reg. 39,381 (Aug. 4, 1977) (microfiche); 42 Fed. Reg. 15,679 (Mar. 23,
1977) (ultrafiche); 41 Fed. Reg. 53,472 (Dec. 7, 1976) (microfiche). In those opinions, approval
of microfiche and ultrafiche technologies for pre-sale availability purposes is predicated upon
the seller providing simple, complete instructions for using the microfiche and ultrafiche readers
and ensuring that retail personnel were familiar with operating the readers to assist consumers if
needed. Similarly, here, if your client wishes to provide only electronic warranties to retailers
instead of paper copies, the retailers would need either to print out the warranties in paper form,
or to have the capability to display the electronic warranty and personnel available to assist
consumers in viewing the warranty information, so that these retailers are “mak[ing] a text of the
warranty readily available for examination by the prospective buyer by: (1) displaying it in
close proximity to the warranted product, or (2) furnishing it upon request prior to sale . . .”
16 C.F.R. § 702.3(a). (Emphasis added.)

Mr. Thomas M. Hughes
February 17, 2009
Page 4
written consumer product warranty that otherwise complies with the requirements and
prohibitions of the Warranty Act and Rules – provided the warranted consumer products include
clear, conspicuous, and easy-to-follow instructions on how to access the warranty information
provided on the consumer product’s internal drive or on an accompanying CD or DVD and that a
consumer can print out a paper copy of the warranty if needed. Further, consumers who receive
your client’s warranties electronically may end up dependent on the copy of the warranty
available on your client’s website if product failure occurs, because they may not be able to
access the internal drive or portable media. Therefore, if your client changes its warranty, it
should keep on its website a posting of printable earlier warranties and the dates they were in
effect.
The opinions and conclusions expressed in the foregoing discussion are those of
Commission staff only and are not attributable to, nor binding on, the Commission itself
or any individual Commissioner. I hope this discussion is helpful to you. If you have any further
questions, please do not hesitate to contact me at (202) 326-2505.

Sincerely,

Allyson Himelfarb
Investigator/Magnuson-Moss
Program Coordinator

